                         I




                          t




         INFORMATION ASSURANCE FOR THE DEFENSE
             CIVILIAN PERSONNEL DATA SYSTEM -
           WASHINGTON HEADQUARTERS SERVICES



Report No. 98-143                         June 3, 1998




              Office of the Inspector General
                  Department of Defense
     Additional Copies
     To obtain additional copies of this audit report, contact the Secondary Reports
     Disui&ution Unit of the Analysis, Planning, and Technical Support Directorate at
     (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
     General, DOD, Home Page at: WWW.DODIG.OSD.MIL.

     Suggestions   for Future Audits

     To suggest ideas for or to request future audits, contact the Planning and
     Coordination Branch of the Analysis, Planning, and Technical Support
     Directorate at (703) 604-8908 (DSN 6648908) or FAX (703) 604-8932. Ideas
     and requests can also be mailed to:

                         OAIG-AUD (ATTN: APTS Audit Suggestions)
                         Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                         Arlington, Virginia 22202-2884

     Defense Hotline
     To report fraud, waste, or abuse, contact the Defense Hotline by calling
     (800) 424-9098; by sending an electronic message to
     Hotline@DODIG.OSD.MiL;        or by writing to the Defense Hotline, The
     Pentagon, Washington, D .C. 20301-1900. The identity of each writer and caller
     is fully protected.




Acronyms
csu                      Customer Support Unit
DCPDS                    Defense Civilian Personnel Data System
                         Regional Service Center
ES                       Washington Headquarters Services
                            INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAW DRIVE
                            ARLINGTON, VIRGINIA 22202




                                                                            June 3, 1998
MEMORANDUM
_.___._ -_--.- ----   FOR
                       --.--- DIRECTOR, ADMINISTRATION AND MANAGEMENT
                             ASSL-[STANT
                                    ___ SECRETARY OF THE AIR FORCE
                                (FINAPKIAL MANAGEMENT AND COMPTROLLER)
SUBJECT: Audit Report on Information Assurance for the Defense Civilian Personnel
         Data System - Washington Headquarters Services
         (Report No. 98-143)

       We are providing this audit report for review and comment. This is the final of
four reports on the Defense Civilian Personnel Data System. We considered
management comments on a draft of this report in preparing it.

       DOD Directive 7650.3 requires that all recommendations be resolved promptly.
As a result of management comments, we revised Recommendation 1.c. Accordingly,
we request that the Director for Personnel and Security, Washington Headquarters
Services, provide comments on Recommendation 1.c., by August 3, 1998.
        We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Ms. Mary Lu Ugone at (703) 604-9049 (DSN 664-9049) or
Ms. Cecelia A. Miggins at (703) 604-9046 (DSN 6649046). See Appendix F for the
report distribution. The audit team members are listed inside the back cover.




                                         Robert J. ~ieberman
                                      Assistant Inspector General
                                             for Auditing
                         Office of the Inspector   General,   DOD

Report No. 98-143                                                         June 3,1998
   (Project No. 7RE-3006.03)

         Information Assurance for the Defense Civilian Personnel
             Data System - Washington Headquarters Services


                                 Executive Summary

Introduction.   This report is the last of four reports in our ongoing review of the
Defense Civilian Personnel Data System. The previous reports discussed acquisition
management controls for the Defense Civilian Personnel Data System, information
assurance controls for the overall system, and information assurance controls for the
Defense Civilian Personnel Data System as it related to Navy. The Defense Civilian
Personnel Data System currently in operation is a legacy automated information system
that processes sensitive-but-unclassified information for at least 750,000 DOD civilian
personnel records. The DOD is modernizing the Defense Civilian Personnel Data
System as it regionalizes the delivery of civilian personnel service into 22 regional
service centers and approximately 300 customer support units. The modem Defense
Civilian Personnel Data System is scheduled to replace the legacy system when
regionalization is completed. The Washington Headquarters Services, Human
Resource Services Center, will serve as one of the three Defense agency regions and
serves seven customer support units, processing approximately 10,ooO personnel
records.

Audit Objectives.    The overall audit objective was to evaluate the adequacy of
information assurance for the Defense Civilian Personnel Data System at Washington
Headquarters Services. Specifically, we evaluated security planning, risk analysis, and
security management. We did not evaluate the security of network and
communications infrastructure because DOD resources were not available to conduct
vulnerability assessments. We also reviewed the management control program as it
applied to the audit objectives.

Audit Results. Washington Headquarters Services has a security policy, security plan,
contingency plan, and system access and physical security controls in place; however,
it needs to improve information assurance for the Defense Civilian Personnel Data
System. Without adequate information assurance controls, Washington Headquarters
Services cannot ensure the confidentiality, integrity, and availability of more
than 10,000 personnel records. See Part I for the complete discussion and Appendix A
for details of the review of the management control program.
Corrective Actions Taken or Planned. Washington Headquarters Services initiated
the purchase of security software that will work with its recently purchased fiiwall.
Washington Headquarters Services plans to use the security software to manage and
audit all servers on the network and to perform a systems security risk-and-
vulnerability assessment. Also, Washington Headquarters Services is incorporating an
annual mandatory computer security awareness training course in accordance with the
Computer Security Act of 1987.

Summary of Recommendations. We recommend that the Director for Personnel and
Security, Washington Headquarters Services, improve the information assurance
program by directing the appropriate security personnel to conduct a risk analysis to
identify and define overall system threats and vulnerabilities; conduct a systems test and
evaluation; and establish a memorandum of agreement with customer support units to
complete a security plan, contingency plan, and system accreditation and to conduct a
risk analysis, as well as systems test and evaluation. We also recommend that the
Technical Director, Directorate of Personnel Data Systems, Air Force Personnel
Center, coordinate with Washington Headquarters Services training requirements for
designated security personnel for the Defense Civilian Personnel Data System
information assurance program.

Management Comments. The Director, Washington Headquarters Services,
concurred with all but one recommendation, stating that no command and control
relationship exists between the Washington Headquarters Services Regional Service
Center and the customer support units. He noted that each customer support unit is
responsible for completing its own security plan, security policy, contingency plan,
system accreditation, risk analysis, and systems test and evaluation. The Department of
the Air Force concurred with the recommendation and initiated needed actions. See
Part I for a discussion of management comments and Part III for the complete text of
the management comments. Also, see Appendix E for a discussion of management
comments on the finding.

Audit Response. The Washington Headquarters Services comments were partially
responsive. Despite the lack of a command and control relationship between the
Washington Headquarters Services Regional Service Center and the customer support
units, risks exist in relation to the confidentiality, integrity, and availability of
personnel data processed using the Defense Civilian Personnel Data System. Although
each customer support unit is responsible for completing its own security requirements,
the customer support units can access the Washington Headquarters Services Regional
Service Center regional database. The Washington Headquarters Services Regional
Service Center therefore should seek assurance that the customer support units have
adequately implemented security within their information technology environments
before allowing access to its regional database. A command and control relationship
should not be necessary. We request that the Washington Headquarters Services
reconsider its position on the revised recommendation to establish a memorandum of
agreement with its customer support units and provide further comments by
August 3, 1998.




                                            ii
Table of Contents
Executive Summary                                                         i

Part I - Audit Results

      Audit Background                                                    2
      Audit Objectives                                                    3
      Information Assurance Program                                       4

Part II - Additional Information

      Appendix A. Audit Process
        Scope and Methodology                                            18
        Management Control Program                                       19
      Appendix B &mmry of Prior Coverage                                 20
      Appendix C Glossary                                                24
      Appendix D Configuration for the Defense Civilian
                   Personnel Data System                                 27
      Appendix E Management Comments on the Finding and Audit Response   28
      Appendix F Report Distribution                                     31


Part III - Management Comments

      Washington Headquarters Services Comments                          34
      Department of the Air Force Comments                               43
      Civilian Personnel Management Service Comments                     50
Part I - Audit Results
Audit Background

    Defense Civilian Personnel Data System. The Assistant Secretary of Defense
    (Command, Control, Communications, and Intelligence) designated the Defense
    Civilian Personnel Data System (DCPDS) as an interim standard system in an
    April 22, 1991, memorandum. The memorandum designated the Secretary of
    the Air Force as the executive agent for the DCPDS. At that time, DCPDS
    consisted of a core system, the Air-Force-developed Personnel Data System-
    Civilian, plus distinct Army and Navy versions of Personnel Data System-
    Civilian, Since 1991, DOD has transitioned the Military Departments and most
    Defense agencies to a standard DCPDS. The modem DCPDS program will
    provide a seamless automated information system that will provide support for
    personnel policy actions and personnel decisions during peacetime,
    contingencies, and wartime. The modem DCPDS will support all DOD
    Components worldwide and will be used by personnel officials, employees,
    managers, and senior leadership at all levels of DOD operations throughout the
    world. The modem DCPDS is envisioned to enable one personnel specialist to
    provide personnel services to about 100 civilian personnel. The modem
    DCPDS is also envisioned to eliminate duplicative DOD Component and
    Defense agency personnel system costs and to reduce maintenance costs for
    mainframe computers. The current operational DCPDS supports the Military
    Departments and Defense agencies and consists of DCPDS software applications
    called personnel process improvements. The personnel process improvements
    are an important element in migrating to the modem system. The personnel
    process improvements application programs provide electronic means to
    generate, route, and process personnel actions; create and classify positions;
    initiate, route, and track training requests; and access current personnel database
    and associated data from other functional areas. The functionality of the
    personnel process improvement software applications will be included in the
    modem DCPDS. The DCPDS interim system is designed to improve and
    enhance personnel staffs during the DOD transition to a downsized workforce.

    Washington Headquarters Services. In November 1993, the Secretary of
    Defense, by Program Decision Memorandum, directed the Defense agencies to
    consolidate their civilian personnel operations into three regional service centers
    (RSCs) from FY 1995 through FY 1998. The RSCs will be the repository for
    regional DCPDS databases and for official personnel files. In establishing the
    RSCs, economies of scale will be gained by concentrating personnel support
    functions at one location. Approximately 60 percent of the current personnel
    operations workload will migrate from agency personnel offices to the RSC.
    The remaining workload will be completed in the customer service centers that
    are managed by the agencies. The key element to achieving the expected cost
    benefits and other efficiencies is the electronic connections among agency
    managers and supervisors, the customer support units (CSUs), and the RSC,
    which collectively will service approximately 10,000 employees. In May 1994,
    the Defense Agencies Planning Team developed a regionalization concept plan



                                         2
     that would create a National Capital Region in the Washington, D.C.,
     Metropolitan Area in FY 1996, with two additional regions to be established in
     FYs 1997 and 1998, respectively. Washington Headquarters Services (WHS)
     would manage the RSC and would consolidate portions of the WHS civilian
     personnel offices, the Uniformed Services University of the Health Sciences,
     the Defense Information Systems Agency, the Defense Investigative Service, the
     On-Site Inspection Agency, the Defense Nuclear Agency, and the Joint Staff.


Audit Objectives

     The overall audit objective was to evaluate the adequacy of information
     assurance for the DCPDS at WHS. Specifically, we evaluated the security
     planning, risk analysis, and security management. We did not evaluate the
     security of network and communications infrastructure because DOD resources
     were not available to conduct vulnerability assessments. We also reviewed the
     management control program as it applied to the audit objectives. See
     Appendix A for a discussion of the audit scope and methodology and the review
     of the management control program. Appendix B provides a summary of prior
     coverage related to the audit objectives.
           Information Assurance Program
           WHS possesses a security policy, security plan, and contingency plan,
           and has system access and physical security controls in place. However,
           WI-IS needs to improve information assurance for DCPDS because it did
           not have the required information assurance controls in place to do the
           following:

                   l  conduct a risk analysis for its organization to identify and
           define overall system threats and vulnerabilities as required by DOD
           Directive 5200.28, “Security Requirements for Automated Information
           Systems (AISs),” March 21, 1988 (The Directive);
                   l   complete a systems security test and evaluation; or

                   l  obtain assurance that its CSUs completed a security plan,
           contingency plan, and system accreditation and conduct a risk analysis
           and systems test and evaluation.

           Additionally, the DCPDS functional and acquisition program managers
           did not coordinate with WHS to provide training requirements for
           designated security personnel for the DCPDS information assurance
           program.

           As a result, without those controls, WHS cannot ensure the
           confidentiality, integrity, and availability of more than 10,000 personnel
           records.


Requirements for Information Assurance Controls

    The DoD Directive 5200.28, “Security Requirements for Automated
    Information Systems (AISs),” March 21,1988. The Directive states that at a
    minimum, a risk management program should be in place to determine how
    much protection is required, how much exists, and the most economical way of
    providing the needed protection. According to the Directive, risk management
    is the total process of identifying, measuring, and minimizing uncertain events
    affecting automated information system resources. It includes conducting a risk
    analysis, cost benefit analysis, safeguard selection and implementation, security
    test and evaluation, and systems review. A risk analysis examines system assets
    and vulnerabilities to establish an expected loss from certain events based on
    estimated probabilities of occurrence.

    The Directive also requires a training and awareness program to provide the
    security needs of all persons accessing the automated information systems. The
    security training and awareness program must ensure that all persons responsible
                                                          Information Assurance Program


      for the automated information system or information in the system and all
      persons who access the automated information system are aware of operational
      and security-related procedures and risk.
      The Computer Security Act of 1987. The Computer Security Act of 1987
      requires computer security plans to be developed for all Federal computer
      systems that contain sensitive information to ensure data integrity, availability,
      and confidentiality. The Act defines sensitive information as:
                 . . . any information, the loss, misuse, or authorized access to, or
                 modification of which could adversely affect the national interest or
                 the conduct of Federal programs, or the privacy of which individuals
                 are entitled . . . .

     The Privacy Act of 1974. DOD civilian personnel data are subject to
     provisions of the Privacy Act of 1974. The Privacy Act generally requires
     Federal agencies to safeguard personal information from disclosure to any other
     organization or individual without the consent of the individual to whom the
     information pertains. The Privacy Act also requires each agency to account for
     disclosures of information to other organizations and individuals.


Responsibilities      for DCPDS Information Assurance

     The DCPDS functional and acquisition managers, and WHS and its CSUs, all
     have shared roles and responsibilities in safeguarding the DCPDS personnel
     data. The organizations must fulfill their responsibilities to achieve information
     assurance for DCPDS.

     Directorate of Personnel Data Systems Responsibilities. According to the
     Air Force Personnel Center Pamphlet 38-1, “Organizations and Functions, ”
     April 14, 1997, the Directorate of Personnel Data Systems is responsible for
     establishing, directing, and managing communications-computer systems
     security policy and procedures covering DCPDS as it extends to all
     organizational levels of Federal and DOD organizations and civil agencies.

     RSC Responsibilities. The WHS RSC maintains its own domain and is
     responsible for instituting its own security protection mechanisms and
     procedures as well as for implementing the minimum security requirements
     needed for systems to be secure in accordance with DOD regulations. To meet
     minimum security requirements, WHS must accredit its automated information
     system. An accreditation is the approval to operate in a particular security
     mode using prescribed safeguards. Part of the accreditation process is
     performing a risk analysis of system assets and vuhrerabilities to establish an
     expected loss from certain events based on estimated probabilities of
     occurrence.




                                              5
Information Assnrance Program


      CSU Responsibilities.    The CSU systems architecture consists primarily of a
      desktop personal computer that processes sensitive-but-unclassified data. To
      achieve appropriate measures against threat and vulnerabilities, each CSU is
      responsible for conducting a risk analysis to identify most risks and threats
      associated with each workstation that processes personnel data.


Existing Controls

      Systems Access Controls. DOD Standard 5200.28-STD, “Department of
      Defense Trusted Computer Security Evaluation Criteria, n December 1985,
      requires that access to the system is not given to individuals lacking proper
      authority. Systems access controls were in place at WHS and its CSUs. The
      RSC generates and controls passwords for access to DCPDS and the personnel
      process improvements suites. All new users must attend training for the
      personnel process improvements suites before obtaining access to the DCPDS
      and the personnel process improvements suites. The system administrator
      determines the level of access granted to new users based on a matrix received
      from the CSU. The CSU determines whether requested access is appropriate,
      based on the responsibilities and duties of the user. Password expiration is not
      automatically required by the system; however, users are encouraged to change
      their passwords periodically.

      Physical Security. The Directive states that, as a minimum security
      requirement, automated information systems hardware, software,
      documentation, and all classified and sensitive-but-unclassified data handled by
      the automated information system must be protected to prevent unauthorized
      disclosure, destruction, or modification. The Directive also states that software
      development and related activities must be physically controlled and protected
      when the software is used for handling classified or. sensitive-but-unclassified
      information. Physical security controls were in place at WHS and its CSUs.
      Specifically, at WHS, visitors are required to obtain temporary visitor badges
      upon entry into the WHS RSC building; servers and network components are
      located in a locked room that is not accessible to unauthorized personnel; and
      visitors are escorted while in the computer room facilities. Physical security
      controls at the On-Site Inspection Agency consist of 24-hour security guards at
      the building’s main entrance, card readers at each entrance, and escorting
      visitors without a security clearance; a badge requirement for authorized
      personnel for entry after normal work hours; and camera use. Authorized
      personnel are required to enter their pin numbers into keypads to gain access to
      the computer room. Physical security controls at the Joint Staff consist of
      access being limited to those who have the required clearances and access
      authorization. The barriers include guards, locks, vaults, security containers,
      closed circuit television cameras, and intrusion detection alarm systems.
                                                   Information Assurance Program


Adequacy of the Information Assurance Program for the
Defense Civilian Personnel Data System

    WHS did not have an adequate information assurance program for DCPDS.
    Specifically, WHS did not perform a risk analysis and a systems security test
    and evaluation. It also did not establish an annual mandatory security training
    and awareness program. The DCPDS interconnectivity, with numerous
    information systems and use of the Internet to transfer sensitive personnel data,
    demands an information assurance program to protect the confidentiality,
    integrity, and availability of data processed. The underlying requirement of an
    information assurance program for WHS is to provide reasonable assurance that
    personnel information that DCPDS processes is reliable and properly
    safeguarded.
    An  information assurance program should address key issues such as planning,
    risk management, and accreditation. The program would provide for collecting
    infomiation on the organization’s security position; planning for program
    implementation; analyzing, quantifying, and countering risks; planning for
    disaster recovery; implementing tests; compiling accreditation documentation;
    and accrediting the system, network, or both. Key documents to be developed
    as a result of performing the tasks should include the security policy and plan,
    risk assessment, contingency plan, systems test and evaluation, and a signed
    statement of accreditation by the designated approving authority. The adequacy
    of the information assurance program is determined based on the completion
    and implementation of the documents as well as implementation of system
    access controls, physical security controls, and an adequate security training and
    awareness program.


Information Assurance Control Documentation

    DOD guidance requires that organizations processing sensitive-but-unclassified
    data establish and implement an information assurance program. An
    information assurance program consists of developing and implementing
    documentation such as a security policy, security plan, contingency plan, and
    systems security test and evaluation, and having a signed statement of
    accreditation by the designated approving authority. In addition, WHS and its
    CSUs must have system access controls, physical security controls, and an
    adequate security training and awareness program in place.
    Security Policy. DOD Standard 5200.2%STD, “Department of Defense
    Trusted Computer Security Evaluation Criteria, n December 1985, states that      an
    explicit and well-defined security policy must be enforced so that no one can
    access the system without the proper authority. It requires security policy to
    reflect the laws, regulations, and general policies from which it is derived.
    WHS and its CSUs developed and implemented security policies for its
    organizations.




                                        7
Information Assurance Program


      Security Plan. The Computer Security Act of 1987 requires computer security
      plans to be developed for all Federal computer systems that contain sensitive
      information to ensure their integrity, availability, and confidentiality. The
      security plan describes the strategy for implementing information assurance and
      establishes a methodology for validating the security requirements identified in
      the security policy. Both WHS and the Joint Staff developed a security plan
      that establishes a formal security policy and defines the organizational
      mechanisms necessary for implementation and enforcement. Although the On-
      Site Inspection Agency’s security policy stated that a system security plan will
      be prepared and maintained for all automated information systems, including
      networks processing classified or sensitive-but-unclassified information, it did
      not provide a completed security plan. Without an established security plan, the
      On-Site Inspection Agency has no assurance that it has developed a strategy for
      implementing information assurance controls and a methodology for validating
      security requirements.

     Contingency Plan. The Directive requires that contingency plans be developed
     and tested to ensure that automated information system security controls
     function reliably and, if they do not, that adequate backup functions are in place
     to ensure that security functions are maintained continuously during interrupted
     service. The Directive also states that if data are modified or destroyed,
     recovery procedures must be in place. WHS developed a Disaster Recovery
     Plan, which is a contingency plan outlining the procedures for recovering the
     primary RSC functions from disruption of services. The primary RSC functions
     include providing regional database access to the CSUs and the personnel
     specialists, providing capability for updating the regional database from the
     DCPDS located at Randolph Air Force Base, and providing RSC employees
     access to the RSC Administration Servers. The purpose of the Disaster
     Recovery Plan is to minimize the number of decisions that must be made
     following a disruption of service. The plan is divided into two sections: the
     Continuity of Operations Plan and the Emergency Procedures Plan. The
     Continuity of Operations Plan addresses procedures that must be followed when
     extended systems outages occur. It also outlines a plan of action to recover
     from the loss of communications capabilities to network and power outages and
     hardware failures of the RSC equipment. The Emergency Procedures Plan
     provides guidance to the RSC System Administrators on the procedures
     necessary for the system to be shut down and brought back on line safely.

     The Joint Staff and the On-Site Inspection Agency did not provide contingency
     plans. According to the Joint Staff, the development of a contingency plan is
     based on each organization’s determination of whether the applications on its
     network are critical. According to the Joint Staff, Chief of Security Division,
     DCPDS is considered critical, and the Joint Staff should have addressed
     procedures for recovery from disruption of services. According to the On-Site




                                         8
                                                    Information Assurance Program


     Inspection Agency, a formal contingency plan is not required for its automated
     inf&rnation systems. As a result, &e t&o CSUs have no assnrance that they
     can recover from a disaster or an interruption of services.


Risk Analysis

     Requirement for Risk Analysis. The Directive requires that sensitive-but-
     unclassified information be safeguarded to ensure confidentiality, integrity, and
     availability. It also requires systems, networks, or both to be accredited. An
     accreditation is an approval to operate in a particular security mode using
     prescribed safeguards. Performing a risk analysis is part of the accreditation
     process in which an examination of system assets and vulnerabilities is
     conducted to establish an expected loss from certain events based on estimated
     probabilities of occurrence. In addition to developing DOD guidance requiring a
     risk analysis, the DCPDS Acquisition Program Manager developed guidance for
     the RSCs on the need to conduct an operational certification. According to the
     DCPDS Acquisition Program Manager, the operational certification and risk
     analysis checklists and guidelines were prepared and distributed to all
     components. They were also included as attachments to a memorandum issued
     by the DCPDS Acquisition Program Manager. In the Memorandum for
     Component Project Managers, u Operational Certification-Regional Service
     Centers/Risk Analysis Status, n January 13, 1997, the DCPDS Acquisition
     Program Manager emphasized that the certification step is an integral part of the
     process to ensure system integrity and risk analysis continuity. It further states
     that one of the phases to the DCPDS program security process requires an initial
     risk analysis or an update of the current analysis.

     Performance of Risk Analysis. Despite the DOD Directive requiring a risk
     analysis and the guidance provided by the DCPDS Acquisition Program
     Manager, neither the RSC nor its CSUs -- WHS, the Joint Staff, and the On-
     Site Inspection Agency -- conducted a risk analysis to identify security risks, to
     determine their magnitude, and to identify areas needing-safeguards. In
     addition, they did not conduct accreditations on their workstations to support
     DCPDS certification and accreditation. According to the WHS Information
     Technology Manager, the RSC did not conduct a risk analysis because it did not
     have the necessary tools to allow it to thoroughly assess and identify all of the
     risks and vulnerabilities. He further stated that the RSC was currently
     procuring security software to assist it in conducting a risk analysis. The
     Information Technology Manager stated that WHS would be in a better position
     to assess and identify all of its risks and vumerabilities upon receipt of the
     security software, which was received in September 1997. WHS stated that
     failure to obtain the security software products would result in its inability to
     complete thorough and comprehensive systems security risk-and-vulnerability
     assessments, as well as to measure and monitor compliance with its information
     systems security policies. WhiIe major reliance is being placed on the
     acquisition of security software needed to conduct a risk analysis, it does not
     release WHS from its responsibility to complete a risk analysis. WI-IS can use




                                         9
Information Assurance Program


      other alternatives to assess its systems security risks and vulnerabilities.
      Because WHS has not performed a risk analysis, it does not know what its risks
      and vulnerabilities are, and it does not have assurance that its system is secure
      in accordance with DOD regulations. As a result, WHS can not ensure the
      confidentiality, integrity, and availability of more than 10,000 personnel
      records.

     Followup With WHS by the Directorate of Personnel Data Systems.
     Despite the DCPDS Acquisition Program Manager’s emphasis on the high
     priority that effective risk management and security safeguards have with
     program management, and the need for components’ continued support to
     achieve appropriate measures against threats and vulnerabilities, he did not
     assess whether the regions performed the operational certifications or risk
     analyses. The Acquisition Program Manager also did not followup with WHS
     to determine the status of completion or target completion dates. Specifically,
     the Central Design Activity Security Coordinator could not provide evidence of
     a completed operational certification and risk analysis for WHS, or a target date
     for completion.


Other Information Assurance Controls

     Systems Security Test aud Evaluation. WHS and its CSUs provided no
     evidence that they conducted a test and evaluation of the security of the system.
     The objective of the systems security test and evaluation is to assess the
     technical and nontechnical implementation of the security design and to
     ascertain that security features affecting confidentiality, integrity, and
     availability have been implemented. Systems should be subject to a systems
     security test and evaluation to ensure that they meet the environmental and
     operational security requirements.

     Accreditation. The Directive requires that each automated information system
     be accredited to operate in accordance with a designated approv’mg authority-
     approved set of security safeguards. As of late August, neither WHS nor the
     On-Site Inspection Agency had au interim accreditation; however, in October
     1997, WHS requested and received au extended interim authority to operate.
     According to the designated approving authority for WHS, WHS was operating
     without an interim authority from August 7, 1997, through October 6, 1997. In
     the absence of a signed statement of accreditation, an interim authority to
     operate should be obtained. (An interim authority to operate can be obtained in
     90-day increments up to 1 year.) WHS is currently using the interim system
     that should be accredited by the designated approving authority to indicate that
     due care has been taken to protect the information in the system. A
     reaccreditation will be required when the target system is operational if changes
     to the interim system will affect the accredited safeguards or the prescribed
     security requirements. As a result, WHS has no assurance that its CSU systems




                                         10
                                                  Information Assurance Program


    are approved to operate using a prescribed set of safeguards at an acceptable
    level of risk and that CSUs have taken due care to protect the information in the
    system.
    General Information Assurance Training and Awareness. The Directive
    states that, as a minimum security requirement, a training and awareness
    program must be in place for the security needs of all persons accessing the
    automated information system. The security training and awareness program
    should ensure that all persons responsible for the automated information system
    or information in it and all persons who access the automated information
    system are aware of operational and security related procedures and risk.
    Although security awareness briefings for new users were conducted, security
    management personnel and users of the DCPDS at WHS have not received
    periodic annual training in computer security awareness, and an information
    assurance training and awareness program with annual refresher classes was not
    implemented. Until recently, management did not emphasize the importance of
    information systems security training and awareness. According to the
    Information Systems Security Officer, an annual training program in computer
    security awareness had not been developed because of other higher priority job
    assignments and insufficient time available for developing such a program. For
    example, until recently, the routine job responsibilities of the Information
    Systems Security Officer included writing contract statements of work, meeting
    daily with the contractors, preparing information technology budget
    submissions, attending the information technology budget meetings and
    briefings, maintaining and continuously updating the inventory database, acting
    as the network manager, and performing additional duties as assigned. One of
    the additional duties assigned was the appointment as Information Systems
    Security Officer that, because it was assigned as an additional duty, did not get
    the attention needed to implement it as an adequate information assurance
    training and awareness program. As a result, WHS has no assurance that
    security management personnel and users have the computer security awareness
    necessary to promote a secure system environment. According to the General
    Services Administration Interagency Training Center, lack of awareness is one
    of the major causes of damage to Federal Government computer operations.
    The lack of awareness of computer users concerning the types of threats that can
    cause damage, and the vulnerabilities that permit them to cause damage, is the
    primary problem. Awareness and planned responses to abnormal events can
    dramatically reduce the incidence of all other problems.


Coor#nation With DOD Components on Training
Reqmrements
    The DCPDS functional and acquisition program managers did not coordinate
    with WHS in regard to providing training requirements for designated security
    personnel, such as the Information Systems Security Manager, the Information
    Systems Security Officer, the Network Administrator, and the System
    Administrator for the DCPDS. The Information Systems Security Officer, the
    Network Administrator, and the System Administrators at WHS were not



                                       11
Information Assurance Program


      adequately trained to perform their duties. For example, event audit logs were
      rarely used because the Network Administrator was not trained on how to use
      them without an overload of information that would eventually shut down the
      system. The lack of coordination with WHS and lack of training requirements
      addressing system-specific responsibilities for security personnel could
      compromise the security position of the RSCs and CSUs processing personnel
      data. As a result, required information assurance controls were not in place.
      Without those controls, WHS can not ensure the confidentiality, integrity, and
      availability of more than 10,000 personnel records.


Corrective Actions Taken or Planned

      In September 1997, in an effort to comply with all aspects of the required
      security laws, WHS obtained security software that will work with its recently
      purchased fiiewall. The security software will be used to manage and audit all
      servers on the network. Implementing the security tools will allow the WHS
      information technology managers to establish, manage, and enforce DOD,
      Office of the Secretary of Defense, and directorate information technology
      security policies, while providing a framework for integrating systems security
      functions. The security software will be used to monitor systems security, detect
      suspicious actions as well as patterns of abuse, and respond automatically
      according to established security policies. WHS plans to use the security
      software features to perform a systems security risk-and-vulnerability
      assessment.
      The Information Systems Security Officer at WHS is currently incorporating an
      annual mandatory computer security awareness training course. The course will
      be conducted at least annually, in accordance with the Computer Security Act of
      1987, and will highlight and summarize the contents of the automated
      information system security plan. Also, WHS plans to disseminate monthly
      bulletins from the National Institute of Standards and Technology that address
      computer security.


Conclusion

      The DCPDS functional and acquisition managers did not coordinate with WHS
      about providing training requirements for designated security personnel for the
      DCPDS. Personnel designated as the Information Systems Security Manager,
      the Information Systems Security Officer, the Network Administrator, and the
      System Administrator neither received nor attended any system-specific
      information assurance training addressing their roles and responsibilities.

      Despite DOD requirements and guidance provided by the DCPDS Acquisition
      Program Manager, neither WHS RSC nor its CSUs -- WHS, Joint Staff, and the
      On-Site Inspection Agency -- conducted a risk analysis to identify security risks,




                                          12
                                                   Information Assurance Program


     determine their magnitude, and identify areas needing safeguards or
     accreditations to their workstations to support DCPDS certification and
     accreditation.
     Also, other information assurance controls such as a security plan, a
     contingency plan, a systems security test and evaluation, and a signed statement
     of accreditation by the designated approving authority were not always
     developed, completed, and implemented.


Management Comments on the Finding and Audit Response

    The Director, Washington Headquarters Services, and the Department of the
    Air Force commented on the finding. Although not required to comment, the
    Director, Civilian Personnel Management Service, also commented on the
    finding. We revised the finding as necessary. A summary of those comments
    and our response is in Appendix E. The full text of the comments is in Part III.


Recommendations,         Management Comments, and Audit
Response

    Revised Recommendation. As a result of management comments, we revised
    draft Recommendation l.c. to clarify the nature of actions needed to improve
    the information assurance program for DCPDS.

    1. We recommend that the Director for Personnel and Security,
    Washington Headquarters Services, direct the appropriate security
    personnel to:

           a. conduct a risk analysis for its organization to identify and define
    overall system threats and vulnerabilities.
    Washington Headquarters Services Comments. WHS concurred, stating that
    a risk analysis for the WHS RSC was conducted on October 1, 1997. A copy
    was provided to the Audit Team Leader on December 3 1, 1997, after the draft
    report was issued.

            b. conduct a systems security test and evaluation.
    Washington Headquarters Services Comments. WHS concurred, stating that
    a systems test and evaluation on the WHS RSC information technology
    infrastructure will be completed by the end of the third quarter FY 1998.




                                        13
Information Assurance Program


             c. establish a memorandum of agreement with the customer support
      units that access the regional database. The memorandum of agreement
      should require the customer support units to complete a security plan,
      contingency plan, and system accreditation and to conduct a risk analysis
      and systems test and evaluation.
      Washington Headquarters Services Comments. WHS nonconcurred with the
      draft report recommendation, stating that no command and control relationship
      exists between the WHS RSC and the CSUs and that each CSU is responsible
      for completing its own security plan, security policy, contingency plan, and
      system accreditation and for conducting a risk analysis and systems test and
      evaluation. Each CSU is responsible to its designated approving authority for
      obtaining approval to operate. The introduction of the DCPDS client software
      into the information technology environment of each CSU should trigger the
      information technology managers to conduct a new risk analysis and obtain an
      updated approval from the respective designated approving authority. Because
      WHS has no relationship with the CSU command structure, other than
      providing human resource management support, no authority currently exists for
      WHS to conduct an independent risk analysis of any of its customers’
      workstations or other information technology components.

     Audit Response. The WHS comments are partially responsive. Despite the
     lack of a command and control relationship between the WHS RSC and the
     CSUs, risks exist in relation to the integrity, availability, and confidentiality of
     personnel data processed using the DCPDS, and need to be addressed.
     Although each CSU is responsible for completing its own security plan, security
     policy, contingency plan, system accreditation, risk analysis, and systems test
     and evaluation for its information technology environment, the CSUs can access
     the WHS RSC regional database, which processes more than 10,000 personnel
     records. The WHS RSC should seek assurance that the CSUs have adequately
     implemented security within their information technology environments. We
     have revised our recommendation to have WHS establish a memorandum of
     agreement with the CSUs that access the regional database to obtain assurance
     that the CSUs complete a security plan, contingency plan, and system
     accreditation and that they conduct a risk analysis and systems test and
     evaluation. The recommendation is not implying that WHS complete required
     security documentation or conduct an independent risk analysis for its CSUs.
     The memorandum of agreement should be used as a tool for obtaining assurance
     that the CSUs have adequately implemented security and are exemplifying good
     security practices before fielding new interim system software releases and
     granting the CSUs access to the regional database. We request that WHS
     provide comments on the revised recommendation.

     2. We recommend that the Technical Director, Directorate of Personnel
     Data Systems, Air Force Personnel Center, develop and implement
     procedures to coordinate with Washington Headquarters Services and its




                                          14
                                             Information Assurance Proeram


customer support units and other DOD Components on establishing system-
specific training requirements for designated security personnel for the
Defense Civilian Personnel Data System information assurance program.
Department of the Air Force Comments. The Department of the Air Force
concurred, stating that in conjunction with the Civilian Personnel Management
Service, the DCPDS acquisition program management, is developing a System
Security Annex to the DCPDS Training Support Plan. The Annex will be
provided to DOD Components to plan, develop, and execute training strategies
for functional and technical personnel involved in the operations of the DCPDS.
The Annex will also contain the knowledge, skills, abilities, and training
requirements for network security officers and users at all operational levels.
The System Security Annex was scheduled to be completed by July 1998.
Additionally, starting in May 1998, the DOD Components will be required to
brief the status of their risk analysis and operational certifications at DCPDS
Computer Security Working Group meetings.




                                   15
Part II - Additional Information
Appendix A. Audit Process


Scope and Methodology

    We conducted an on-site review of information assurance policies, procedures,
    and practices. We reviewed the information planning documents such as the
    security policy, security plan, risk analysis, contingency plan, and security test
    and evaluation dated from August 1991 through November 1997. We
    determined whether systems access controls, physical security, and security
    training and awareness programs were developed and implemented. We
    reviewed user, system, and network administrator security practices. We
    identified and interviewed key security personnel such as the Information
    Systems Security Manager, Information Systems Security Officer, System
    Administrator, Network Administrator, and DCPDS managers. We conducted
    interviews to determine the level of training provided for DCPDS, personnel
    process improvements software applications, and information assurance. We
    did not rely on computer-processed data to accomplish the overall audit
    objective.

    Scope Limitation. We did not evaluate the security of network and
    communications infrastructure because DOD resources were not available to
    conduct vulnerability assessments.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD and the Federal Government. Further details are
    available upon request.

    Audit Period and Standards. We performed this economy and efficiency
    audit from June through November 1997 in accordance with auditing standards
    that the Comptroller General of the United States issued, as implemented by the
    Inspector General, DOD. Accordingly, we included tests of management
    controls considered necessary.




                                         18
                                                       Appendix A. Audit Process


Management Control Program

    DOD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.
    Scope of Review of the Management Control Program. We reviewed the
    WHS management controls as they related to the DCPDS information assurance
    program. Specifically, we reviewed WHS controls for security planning, risk
    analysis, and security management for DCPDS. We also reviewed
    management’s self-evaluation for those controls.

    Adequacy of Management Controls.          We identified material management
    control weaknesses for WHS, as defined by DOD Directive 5010.38. The
    controls for information assurance were inadequate to ensure the confidentiality,
    integrity, and availability of the information stored on and processed by
    DCPDS. The recommendations in this report, if implemented, will improve the
    controls for protecting DCPDS. A copy of this report will be provided to the
    senior official responsible for management controls at WHS and the Air Force
    Personnel Center.

    Adequacy of Management’s        Self-Evaluation. Management did not identify
    the DCPDS program or the computer security as an assessable unit and,
    therefore, did not identify or report the material management control
    weaknesses identified by the audit. Management did not conduct an evaluation
    for FY 1996. Management did not reevaluate all assessable units to ensure that
    the management controls are addressed for all risk areas in the Personnel and
    Security Division after the regionalization efforts in FY 1996, as they planned.




                                       19
General Accounting Office

     GAO Report No. AIMD-96-144 (OSD Case No. 1213), “DoD General
     Computer Controls: Critical Need to Greatly Strengthen Computer Security
     Program,” September 30, 1996. The report discusses the General Accounting
     Office evaluation of the general computer controls at several large Navy and
     Marine Corps computer installations and at selected Defense Information
     Systems Agency megacenters. The report notes security weaknesses that would
     allow hackers and legitimate users to improperly access, modify, or destroy
     sensitive DOD data. The report recommended a centralized security management
     program with defined responsibilities, periodic reviews, and monitoring and
     reporting improvement actions. DOD management concurred with all findings
     and recommendations.

    GAO Report No. AIMD-96-84 (OSD Case No. 1150), “Information
    Security: Computer Attacks at Department of Defense Pose Increasing
    Risks,” May 22, 1996. The report discusses the General Accounting Office
    review of the extent to which DOD computers are being attacked, the potential
    for damage, and the challenges faced in responding to the attacks. The General
    Accounting Office noted that attacks are increasing and damaging and are a
    threat to national security. The General Accounting Office concluded that
    policies are out of date and inconsistent and that many users are not aware of the
    magnitude of the problem. The report recommended that the Secretary of
    Defense strengthen the DOD information systems security program by improving
    policies and procedures, increasing user awareness, setting standards, monitoring
    security, and establishing responsibility and accountability. DOD management
    agreed with the report’s findings and recommendations.


Office of the Inspector General, DOD

    Report No. 98-127, “Information Assurance of the Defense Civilian
    Personnel Data System - Navy,” April 29, 1998. The audit objective was to
    evaluate the adequacy of information assurance for DCPDS as it related to the
    Navy. Specifically, the audit evaluated DCPDS security planning, risk analysis,
    and security management. The report concludes that the Navy Pacific Region
    and two of its three human resources offices have made DCPDS information
    assurance a high priority and have computer security programs in place.
    However, at the beginning of the audit, its Human Resources Office Marine
    Corps Base Hawaii Kaneohe Bay did not have a security program in place. As a
    result of the :;tidequate information assurance controls at Human Resources
    Office Marir:: Corps Base Hawaii Kaneohe Bay, the Navy cannot ensure the



                                        20
                                    Appendix B. Summary of Prior Coverage


confidentiality, integrity, and availability of more than 209,000 Navy and
Marine Corps civilian personnel records. The Human Resources Office Marine
Corps Base Hawaii Kaneohe Bay has taken corrective action during the audit by
developing a security policy and interim authority to operate and by conducting a
system security test and evaluation. It has also appointed key security
management positions and established a risk analysis safeguard checklist to
identify and define overall system threats and vulnerabilities for the computers
that run the Defense Civilian Personnel Data System, and it has initiated ongoing
security awareness training in accordance with the Computer Security Act of
1987. The report recommended that the Human Resources Office Marine Corps
Base Hawaii Kaneohe Bay improve the adequacy of its Defense Civilian
Personnel Data System information assurance program by completing an overall
security plan and a contingency plan. The Department of the Navy concurred
with the recommendations and has initiated needed actions.

Report No. 98-082, “Information Assurance of the Defense Civilian
Personnel Data System,” February 23, 1998. The audit objective was to
determine the adequacy of the information assurance program for major
automated information systems, specifically to evaluate DCPDS security
planning, risk analysis, and security management. The report concludes that the
DCPDS information assurance program did not have adequate controls in place
to safeguard DCPDS data and resources. As a result, DCPDS has high risks for
unauthorized system access, intentional and unintentional alteration and
destruction of data, and denial of service to authorized users. The report
recommended strengthened oversight and management of DCPDS information
assurance. Also, the report recommended the establishment of information
assurance functional requirements and the implementation of information
assurance measures to protect DOD civilian personnel data. The Director,
Civilian Personnel Management Service, stated that, by acquiring C-2 compliant
system hardware and software, no perceivable threats would be in the DCPDS
processing environment that must be countered by system design. In addition,
the Director stated that a computer security response team, representing the
Major Automated Information Systems Review Council,_identified risks to
DCPDS through a facilitated risk assessment program, and the acquisition
program manager is developing an action plan to mitigate program risks. The
Director nonconcurred with a draft recommendation to revise the operational
requirements document to include validated threat information and also
nonconcurred with the threat requirements and funding to protect the DOD
civilian data. The Director stated that the facilitated risk analysis provided a
comprehensive list of threats and is a more appropriate analysis for the DCPDS.
The Director also stated that he does not recognize coordination with the
acquisition program manager as a problem and that there are no funding
deficiencies for protecting DOD civilian personnel data. The Director agreed
with the recommendation to coordinate and approve a certification and
accreditation plan to protect the DCPDS and commented that his office is
determining which organizational component will serve as the operating DCPDS
designated approving authority. Air Force management and the Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence)
management agreed with the report’s findings and recommendations.



                                   21
Appendix B. Summary of Prior Coverage


     Report No. 98-024, “Security Controls Over Systems Serving the DoD
     Personnel Security Program,” November 19, 1997. The audit objective was
     to evaluate security controls over the computer system serving the DOD
     personnel security program, which the Defense Investigative Service administers.
     The report states that the Defense Investigative Service did not have adequate
     controls to protect personnel security systems and data from compromise.
     Therefore, the Defense Investigative Service cannot ensure that unauthorized
     individuals can be prevented from accessing, modifying, or destroying the highly
     sensitive DOD personnel security information that it administers. The report
     recommended the Defense Investigative Service communicate specific security
     requirements, modify Memorandums of Agreement and contracts to include
     system security, develop and implement access control policies, isolate critical
     resources in the system architecture, and improve physical security. The
     Defense Investigative Service did not agree with the overall characterization of
     its system security status, but agreed with all recommendations and initiated
     responsive actions.

     Report No. PO 97-049, “DOD Management of Information Assurance
     Efforts to Protect Automated Information Systems,” September 25,
     1997. The audit objective was to determine the effectiveness of DOD
     management of information assurance efforts to protect automated information
     systems. The report concludes that the security safeguards and practices that
     protect DOD automated information systems need improvement. Inefficient and
     ineffective implementation of the Defense-Wide Information Systems Security
     Program, outdated policies and procedures, inadequate direction and oversight,
     and lack of accountability for information systems security management controls
     contributed to the inadequate security safeguards. The report recommended
     developing procedures to determine the Defense information infrastructure’s
     security posture, developing an information assurance strategic plan, and
     incorporating accountability requirements for personnel responsible for
     safeguarding DOD automated information systems. The Acting Assistant
     Secretary of Defense (Command, Control, Communications, and Intelligence)
     generally concurred with the finding and recommendations and, in coordination
     with the Services, Joint Staff, and Defense agencies, was establishing an
     integrated management process to extend DOD oversight of information
     assurance programs and activities to all DOD Components.


Air Force Audit Agency
     Project No. 96054027, “Data Communications Security,” April 15,
     1997. The audit objective was to determine whether the Air Force adequately
     protects sensitive-but-unclassified information transmitted over the Air Force
     Internet. The report concludes that Air Force systems continued to transmit
     sensitive-but-unclassified information unprotected over the Air Force Internet
     because the Air Force system managers had not conducted a risk analysis. Users
     and system managers of 5 of the 11 systems examined were not aware of the
     increased risk of using the Air Force Internet or of the sensitive nature of the



                                        22
                                         Appendix B. Summary of Prior Coverage


    information. The Air Force Audit Agency recommended a risk analysis for each
    system to identify the current risks of transmitting sensitive-but-unclassified
    information over the Air Force Internet, as well as emphasizing protection
    requirements to the designated approving authorities. Air Force management
    officials agreed with the overall audit results and planned responsive actions.
    Project No. 93058001, “Review of Personnel Concept III System Security
    and Equipment Management,” April 3, 1995. The audit objective was to
    determine whether selected security and control procedures were properly
    implemented in the Personnel Concept III computer system. The report
    concludes that the Air Force did not implement adequate security access
    protection for the system and did not properly account for computer equipment.
    The Air Force Audit Agency recommended implementing separation-of-duty
    requirements, maintaining consolidated accreditation databases, identifying
    system threats and areas requiring additional protection, and implementing
    proper control and authorization of passwords. Air Force management officials
    agreed with the overall audit results and planned responsive actions.


Other Related Coverage
    Defense Science Board Task Force, “Information Warfare-Defense (IW-D),”
    November 21, 1996. The Defense Science Board Task Force was established to
    study the protection of information interests of national importance through a
    credible information warfare defensive capability. The report concludes that
    action is needed to defend against possible information warfare attacks against
    DOD systems that could affect the ability of DOD to carry out its responsibilities.
    The task force recommended 50 actions ranging from identification of a focal
    point within DOD for information warfare activities to allocation of
    approximately $3 billion over the next 5 years to implement recommendations.

    Joint Security Commission, 4*Redefiing Security,” February 28, 1994. The
    Joint Security Commission report addresses the processes used to formulate and
    implement security policies in DOD and the intelligence community. The Joint
    Security Commission concluded that the clearance process was needlessly
    complex, cumbersome, and costly. The Joint Security Commission made
    recommendations to create a new policy structure, enhance security, and lower
    cost by avoiding duplication and increasing efficiency.




                                        23
Appendix C. Glossary
   Federal and DOD organizations have published numerous definitions for terms
   to describe conditions, events, and key officials involved with safeguarding
   automated information systems. We primarily used definitions from DOD
   Directive 5200.28, “Security Requirements for Automated Information
   Systems, ” March 21, 1988, and definitions from other guidance authorized by
   tbat Directive.
   Accreditation.   Accreditation is the formal declaration by a designated
   approving authority that a system is approved to operate in a particular security
   mode using a prescribed set of safeguards at an acceptable level of risk.
   Accreditation is the official management authorization for operation of an
   information system and is based on the certification process as well as other
   management considerations. The accreditation statement affixes security
   responsibility with the designated approving authority and shows that due care
   has been taken for security. (DODDirective 5200.28)

   Availability. Availability is the timely, reliable access to data and information
   services for authorized users. (DOD Directive 5200.40, “DODlnfonnuiion
   Technology Security Certification and Accreditation Process, n December 30,
   1997)

   Certification. Certification is the comprehensive evaluation of the technical
   and nontechnical security features of an information system and other
   safeguards, made in support of the accreditation process, to establish the extent
   to which a particular des’gn and implementation meets a set of specified security
   requirements. (NSTISS f No. 4009)

   Certification Official. The certification official is the person responsible to the
   designated approving authority for ensuring that security is provided for and
   implemented throughout the life cycle of an automated information system,
   beginning with the concept development phase through its design, development,
   operation, maintenance, and secure disposal. (DOD Directive 5200.28)

   Confidentiality. Confidentiality is the assurance that information is not
   disclosed to unauthorized entities or processes. (NSTISSZ No. 4009)
   Contingency Planning.    Contingency plans are developed and tested in
   accordance with Office of Management and Budget Circular A- 130 to ensure
   that automated information systems’ security controls function reliably and, if
   not, that adequate backup functions are in place to ensure that security functions
   are maintained continuously during interrupted service. If data are modified or
   destroyed, recovery procedures must be in place. (DOD Directive 5200.28)


   ’ National Security Telecommunications and Information Systems Security Instruction.




                                            24
                                                          Appendix C. Glossary


Data’ Integrity. Data integrity is the condition that exists when data are
unchanged from their source and have not been accidentally or maliciously
modified, altered, or destroyed. (NSTISSZ No. 4009)
Designated Approving Authority. The designated approving authority is the
official with the authority to formally assume responsibility for operating a
system at an acceptable level of risk. The designated approving authority must
be at the organizational level, have the authority to evaluate the overall mission
requirements of an information system, and provide definitive directions to
automated information system developers or owners on the risk in the security
posture of the system. (DOD Directive 5200.28)
Information Systems Security Manager.       The Information Systems Security
Manager is the person responsible for implementing the overall security
program approved by the designated approving authority. The Information
Systems Security Manager focuses on automated information system security
and should not participate in the day-today operation of the automated
information system. (National Computer Security Center-Technical
Guideline-027)

Information Systems Security Officer.      The Information Systems Security
Officer is the person responsible to the designated approving authority for
ensuring that security is provided for and implemented. Specifically, the
Information Systems Security Officer is to:
    l  maintain a plan for system security improvements and progress toward
meeting the accreditation,
    l  evaluate known vulnerabilities to ascertain whether additional safeguards
are needed, and
    l  ensure that audit trails are reviewed periodically. (DOD Directive
5200.28)
Risk Analysis.    A risk analysis is an analysis of system assets and
vulnerabilities to establish an expected loss from certain events based on
estimated probabilities of occurrence. (DOD Directive 5200.28)

Security Awareness Training.       Mandatory periodic security awareness training
is required for all persons involved in management, use, or operation of Federal
computer systems that contain sensitive information. (Computer Security Act
of 1987, Public Law 1011-235)

Security Mode.    The security mode is the description of the conditions under
which a system operates, based on the sensitivity of the information processed
and the clearance levels, formal access approvals, and need-to-know of its
users. The four modes of operations are the dedicated mode, system-high
mode, compartment or partitioned mode, and multilevel mode.
(NSTISSI No. 4009)




                                    25
Appendix C. Glossary


      Security Test and Evaluation. A security test and evaluation is the
      examination and analysis of the safeguards required to protect an information
      technology system, as they have been applied in an operational environment, to
      determine the security posture of that system. (NSTZSSZ  No.4009)
      Threat. A threat is any circumstance or event that has the potential to cause
      harm to an information system in the form of destruction, disclosure, adverse
      modification of data, or denial of service. (NSTZSSZNo.4009)
      Vulnerability. Vulnerability is weakness in an information system or its
      components (such as system security procedures, hardware design, and
      management controls) that could be exploited. (NSTZSSZ   No.4009)




                                         26
Appendix D. Configuration for the Defense
Civilian Personnel Data System
   DCPDS Database. The WI-IS civilian personnel records are maintained on the
   DCPDS database at the Air Force Information Processing Activity located at
   Randolph Air Force Base in San Antonio, Texas. The DCPDS database
   contains more than 750,000 civilian personnel records, of which 10,000 are
   processed by WI-IS. The CSU accesses the regional database at the RSC, which
   updates the DCPDS database at Randolph Air Force Base.
   DCPDS Connectivity. The DCPDS database is networked to regional data
   bases, which, in turn, link to CSUs and agency managers and supervisors. The
   RSC network is a Microsoft Windows NT and UNIX Hewlett Packard network
   with a Fiber Distribution Data Interface backbone. The RSC maintains the
   regional database that the CSUs access. A connection of the Fiber Distribution
   Data Interface Networking Services from the router provides the RSC
   connectivity to the Office of the Secretary of Defense.

   The regional database server provides support for the human resources
   requirements of the entire WHS region. The CSUs access the regional database
   server for the human resources information that is contained in the database
   resident on the server. Connectivity from the RSC to the DCPDS database at
   Randolph Air Force Base is provided through the Non-Classified Internet
   Protocol Router Network. The CSUs access the database using the Common
   Desktop Environment Runtime application program from the CSU workstation
   computers. The Common Desktop Environment Runtime application program
   allows the CSU users to run the personnel process improvements application
   programs directly from the user workstation computers. The personnel process
   improvements application programs provide electronic means to generate, route,
   and process personnel actions; create and classify positions; initiate, route, and
   track training requests; and access current personnel database and associated
   data from other functional areas. The personnel process improvements
   applications effectively bypass the CSU server and move all of the functionality
   of the server onto the workstation computer. Currently, no servers are at the
   CSUs. WI-IS does not see the need for servers at the CSUs unless the amount
   of data being processed increases significantly, However, according to the
   WHS Information Technology manager, depending on the new technical and
   architectural designs ‘for the target system, the final decision on whether to place
   servers at the CSUs will be determined by the Central Design Activity and the
   Civilian Personnel Management Service.




                                        27
Appendix E. Management Comments on the
Finding and Audit Response

   The Director, Washington Headquarters Services; the Air Force; and the
   Civilian Personnel Management Service provided comments on the finding.
   For the full text of management comments, see Part III.
   Washington Headquarters Services Comments on General Information
   Assurance Training and Awareness. The Director, WHS, stated that the
   Directorate for Personnel and Security, WHS, performs initial system security
   training for new employees upon their entry on duty. WHS also conducts
   annual refresher training for all of its employees. Adequacy of the training
   materials is currently under review. WHS plans to have a completely revised
   information system security training program by the fourth quarter of FY 1998.
   Audit Response. According to the Information Systems Security Officer, the
   computer security training was in the form of a briefing and was provided to
   new employees only. We were not provided data indicating that computer
   security training was conducted as an annual refresher to all employees.
   According to the Information Systems Security Officer, an annual computer
   security training and awareness course will be required for all employees.
   During the audit, we were told that the Directorate for Personnel and Security,
   WHS, was incorporating an annual mandatory computer security awareness
   course that would be conducted in accordance with the Computer Security Act
   of 1987. That corrective action was noted in the draft audit report.

   Department of the Air Force Comments on Coordination With DoD
   Components. The Department of the Air Force disagreed with the part of the
   finding that the DCPDS functional and acquisition program managers did not
   coordinate with WHS about their respective security management roles and
   responsibilities for the DCPDS information assurance program. _

   According to the Department of the Air Force, DCPDS program managers
   coordinated security management roles and responsibilities with DOD
   Component project management through working group meetings over the last
   3 years. Chaired by DCPDS functional program management office, the
   working group is used as a forum to develop and coordinate security policy,
   guidelines, and documentation for the modem DCPDS. Additionally, security
   management roles and responsibilities for the modem DCPDS are specified in
   the modem DCPDS Security Support Plan.

   The modem DCPDS Computer Security Working Group will develop a security
   annex for the modem DCPDS Training Support Plan. The annex will identify
   training requirements for security personnel, including the Information Systems




                                      28
  Appendix E. Management Comments on the Finding and Audit Response


Security Manager, the Information Systems Security Officer, the Network
Administrator, and the System Administrator. The security annex will also
apply to the interim DCPDS.
Civilian Personnel Management Service Comments on Coordination With
DoD Components. The Civilian Personnel Management Service disagreed with
the finding and stated that the Air Force Personnel Center had coordinated with
the DOD Components concerning security management roles and responsibilities
for the interim DCPDS. Specifically, the Air Force Personnel Center provided
system administrator training, manuals, and software release announcements to
the DOD Components covering practices and procedures for granting access to
the interim system. The Civilian Personnel Management Service, as the
functional proponent for the DCPDS, also stated that recently it had published a
coordinated modem DCPDS policy and security support plan, which define the
respective security management roles and responsibilities for the modem
DCPDS.

The Civilian Personnel Management Service agreed with the finding in that the
DCPDS functional and acquisition program managers did not provide any
training requirements for the designated security personnel such as the
Information Systems Security Manager, the Information Systems Security
Officer, the Network Administrator, and the System Administrator for the
DCPDS. According to the Civilian Personnel Management Service, training
requirements for designated security personnel using the legacy and interim
DCPDS were not provided. The modem DCPDS Computer Security Working
Group will develop a security annex for the modem DCPDS Training Support
Plan. The annex will identify training requirements for security personnel,
including the Information Systems Security Manager, the Information Systems
Security Officer, the Network Administrator, and the System Administrator.
The security annex will also apply to the interim DCPDS.

Audit Response. The draft report stated that the DCPDS functional and
acquisition program managers did not coordinate with WHS in their respective
security management roles and responsibilities for the DCPDS information
assurance. The statement was not meant to imply that the Air Force Personnel
Center did not coordinate with the DOD Components by providing system
administrator training, manuals, and software release announcements to the
DOD Components’ program. Instead, intent was to emphasize the lack of
coordination with DOD Components regarding the establishment of training
requirements for designated security personnel. To eliminate confusion, we
have revised the finding and clarified the report to emphasize the lack of
coordination for training requirements for DOD Components.




                                   29
Appendix E. Management Comments on the Finding and Audit Response


     Department of the Air Force and Civilian Personnel Management Service
     Comments on the Executive Summary and Audit Background. The
     Department of the Air Force and the Director, Civilian Personnel Management
     Service, stated that the language used in those elements of the audit report may
     confuse readers because it does not distinguish between the legacy DCPDS and
     the modern DCPDS.

     Audit Response. We revised the language used in the executive summary and
     Audit Background to distinguish between the legacy DCPDS and the modem
     DCPDS.




                                        30
Appendix F. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
   Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
Under Secretary of Defense for Personnel and Readiness
   Deputy Assistant Secretary of Defense (Civilian Personnel Policy)
   Director, Civilian Personnel Management Service
Assistant Secretary of Defense (Public Affairs)
Director, Administration and Management
   Director, Washington Headquarters Services
      Director for Personnel and Security
Director, On-Site Inspection Agency
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Air Force Personnel Center
  Technical Director, Directorate of Personnel Data Systems, Air Force Personnel
      Center




                                          31
Appendix F. Report Distribution


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on National Security, Committee on Appropriations
House Committee on Governmental Reform and Oversight
House Subcommittee on Government Management, Information, and Technology,
   Committee on Government Reform and Oversight
House Subcommittee on National Security, International Affairs, and Criminal Justice,
   Committee on Government Reform and Oversight
House Committee on National Security




                                           32
Part III - Management Comments
Washington Headquarters Services Comments


                      OFFICE     OF THE SECRETARY                 OF DEFENSE
                                 1SSO DEFENSE PENTAGON
                                WASHINGTON. DC 20301-I SSO



                                                                     13 1:_    .:;:r




      MEMORANDUM          FOR DIRECTOR, ACQUISII-ION MAh’AGEMEBT
                              DEPARTMENT OF DEFENSE INSPECTOR GENERAL

      SUBJECT: Audit Rcpt on idodon      Assumme for the Dcfhc              Civilian Personnel
               Data System - Wastdngton Headqumters services
               (Pruject No. 7FiE-300643)




              IssuesraisdinthedraftAuditrrpoRwhichdonotdirectly~lyloWashington
      Hadqumta        Sewices have not ken addressed. Specifically. no nxponse has beam msie
      to plogmm maMgemcrit acensr&ingtothcDoDCivilianPcrsomm                   1 hhmagunent
      Service or the U.S. Air Force Personnel Center.

              1iaFprcciatetheoppomuritytorcviwand        commultonyollrdraftrqortofttlc
      audit and your consi-          of my remarks in the puMicati0n of your fiaal qort
      Questions should be dii        to Mr. A. L. Papent%. (703) 697-l 703, Ms. Linda
      Dunlawy, (703) 617-7112 or Mr. John Dowwy, (703) 617-7113.




                                                    D. 0. Cooke
                                                    Director




                                                  34
                                   Washington Headquarters Services Comments


                                                                                Final Report
                                                                                 Reference




Ftmdings:

      THS possesm a soxrily policy, sccurily plau, and conTingency
                                                                 plan and has
systemeccessawl physicalsecuritycatrols in place. Howe& WHS needs to improve
infixmation msumncc for DCPDS tnxause it did not have the required hfonnati~n
iWSW?UlCCcmrtmlShpllcetOdOthC~~:


       a ~arisL~y~foritswgwirationtoidcntifyanddcfineownl1

system threats and vdnuabilhies as rcqukd by DODDive       5200.28, ‘%%‘ity
Req _&neat. for A&mated laf&rmationSystcins (A@), u Merch 2191988 clbe
DilWtiV+,
        b. completeasystanstcstaraieva!uation,or

                                                                                Revised


      a. caneur-ARisk~~fortbeWHSRegionalServiceCmta(RSC)~
conducted 1 October 1997, aud a copy providedto Ms. Dorothy Dixon, Audit Team
L&a, 3 1 DMant!cr 1997. Item complete, no errtba action required.
      b. Concur -A systans test and evaluation on the WHS RSC infomution
te&io~o~ m            will be compked by the end of the 3”1quarta. W 98.

        c. NonwMlr-




                                                   35
Washington Headquarters Services Comments




           a. “!kurityPhn”(Page8ofthehditRq1ort)


           ...“A&ougb the On-Site kpcction Agency’s saznity policy stated that a system
           saxuityphwillbe&ardmaiuhkdfor111~irlf~syrtems.
           inhding networka pnwssing chsifmd of t                          infontutio~ it did
           aotprovideaaxnpietedwcuritypian     Withadauestabli&cdsehtyplan,theOn-Site
                                   assmawtbntithllsdcvelopedrsmucgyfor~emaIting
                       -W?ltdSdAlUdhOdObgy                fO~~$CCti~requirrments”




                                                           36
                                  Washington Headquarters Services Comments


                                                                                        Final Report
                                                                                         Reference




       WHScan neitba concur ttor nonconcur with this finding. As rimedabove.no
commead~controlmlatioPrhpexins~theWHSRSClod~beUs.                         E8ch
Customer Suppod Unit is rapoasible for ampking ib own securityplan, &ty
policy.conringcllcy~wdsystem~~~Md~ta~iskanrlysismd
systans tut and cvahation fortheirown IT enviromnenk3.
       As noted011page5, in the sectior~of your DRAFT Audit &port outlii
x;Miics          for
                  .
                     DCPDS hformah Assurance”, “RSC Rapomibititk The
           ~ittown&~~israpollsibleforinstitutingitrowatecurity
pmtection rn&attisms and pmcedmw as well as for impicmcnliagtfieminimum security
rcquiruna#s teded for systems to be secure in acuxhce with DODregulations. To
meet minimum sea&y requimmcn~ WHS must xxxcdit its automated it&m&ion
system. AnaccndirationLthcapprovlrl~oeina~~~~modcuoing
                                acu&itationpmcessi6paformingariskamdysisof
                              toestablistlaneqK!cttdlossBomccrtain&vultsbascd
                          occumnce.” Asnotedabove,aRiskAnalysisfortheWHS
                              . sy!mlaaxtlitypkmsandpolicydocumentswcre
submit&d to the WHS DAA. We have recently been vahlly informed that our interim
accreditation was made wt.
        As noted on page 6. in the section of your drafl Audit Report outlining
“Rcsponsibiliti+ hr DCPDS Infotmation Assurance”, ucsuRuponriMutik              The
cSUsystcmsarchi~consistsprimarilyofPdcsJI1oppQBoI1oJ~that
pmceses suuitiveht-unclassified data To achieve appqrh            musur~ against that
~vulnarbilities,achCSUir~luibleforeo~arisLrnrlyPisto~
most risks and threats associated with each workstation tbat pnxzsscs pcrsotmel data”

        In conclusion, each CSU is rcqxmsible to their DAA for akaining approval to
operate. Thcfadt&DCPDSclicntsoftwarchasbeenhmducedintothcCSUM’
mvironmentsshouldtri~theCS~sIImanrgatoeolductancwri*~ypis~
obtain~updmedappt~valhmtheir~veDAA.                     SimxWHShasnorelrtiotxbip
withrhecsUcommands~,othertbsninprovidinghumannsouree~
~WHSisinnaposition~oetherisloorthnatsimporsdbytheintroduaion
of tht PPI client software on the CSU IT infrsshuctare. Additionally. no authody
amen@ exists for WHS to coadti 813indeptnacnt risk anaJysh of any of its cwtomei’
wurMatiam3 or other IT componems. Recommend your 0Uii 8ddmss this issue directly
to OSLA.
b. QeqalcyPlM”(P&ge9oftbcAIaditRq!ort)
                                                                                        Page 8
-:
       “Ike Joint Staffarxl the On-Site Jnspahm Agency did not provide contingency
ph%*




                                                   37
Washington Headquarters Services Comments




                   Partinllyconcur.Ai&kAnalysisfortheWHSRSCvmscandWcd1Octobcr
            1997,~acopypDovidedtoMsDorothyDixon,AuditTermLeda,31.De4ankr
            1997. Additiomliy, Mr Dixonwu fumiskd a copy of the opentionsl Cut&&m
            lcoaforthewHSRsCpravidccibytheDcpDSAcqui3ition~~~on                   14
            Nomhe.r1997. Stanannplctc,nofhthcractionrqdrcd.
                   wHscannotcxmcurwr~ncurwith~faaff;es           toliska.uldyscsbeing
            conductcdforxnyCSusot!utbxllwHs.      (TtIcRiskAn8lysismdxccruii~tithe
            WHSCSUisincludedwiththatofthcWHSRSC.) Hovmu,rrsitpeMnstotbeotber
            suppoedcurtomasllpportunitsandxsnotcdabovc,no ummlmxlxndcontrol
            mlation&ipexktsbetweu~theWHSRSCxndthoseCSUs. EhCSUismqonsiblefor
            completingits own wzurity ph. sccmitypolicy, amtingacy plaq syswm xareditation
            andtocondudarisk~ysismdsystemstestandevawtionfortbcuownIT
            ulviroammtz



            Syntem Security      and Evduntion(Pyr IOoftbc AuditRep&)
                              Test
            Pmdingsz

                   “WHS andits CSUs providedno evidencethatthey conducted‘Ptest and
            evaluationof the.sfzculityof the system.”




                                                          38
                              Washington Headquarters Services Comments


                                                                             Final Report
                                                                              Reference




      Patiellyconcur. Asysten~testandevehetionoatheWHSRSCandtheWHS
csu informationtechnologyi-          will be completedby ale cad of the 3*
qupta.Fy98.
       AsprcviousIystated#wHSwnneit&rJconaKnortlotwaclKwithreferenccsto
riske&wcsbeitlgcutu3uctedformtyCSUsothertblmwHs. (T%cRiskAMlysisaad
wzditetion tar the WHS CSU b W&d with thatof the WHS RN!.) Howwar, at it
patqinstotbeotha~cSUsmdar~~above,nocommmdandco~l
rchombipexistsbetweatheWHSRSCendthoseCSUs.          EacbCSUismponsibIefor
oompletingitrown~typ~seMitypolicy,~plm.rystem~~n
aodtocoaductaritanalysismdsystansteslImdtvaluationforthcirownIT
en-.

                                                                             Page 10




ConcurtitbtbisfidingasitnhtestoWHS.      Aspteviouslynoted,bowwerrfitd
eccreditethbasbeenverbellymceivedbytheDAA. Fmtbcr,esindhtulabove,
perceiveddeficiehes with eny CSUs shouldbe eddmsxd toepeItiUlhClLS@mer
SqporILhtk




Findings:

“...Akbougb security
                 awalutes sb&?fmgsfornewususwerecotId~~ty
mauagementpetsonnetend WIE of tbe DCPDSet WHS have not receivedperjodic




                                              39
               Wash&ton Headquarters Services Comments


Final Report
 Reference




                          almd~prOgrSminc4mlputuSaamity-                          hSlidllOtbCClldCVCl0pCd
                          bccaue  of otha higher priority job ass&mu& and ins&&i& time avnilable for
                          dcvhphg    such a ppponm. For example, Mail recently, tIm mutine job rqonsibilitics
                          Of~IInforma~S~Secprity               Oacaindudsdwritiageontnd~Of




                                  Noxoncm.    Altbo@thcIz&mdonSysttmr~~~huattLer
                          mspcmsibiiitksassignedtohim,thedutLesdidnotpmcludebisdmlopiagand
                          implcmmtingaviablswmputu#cmityrwuareor            ~xogmm. hootaiintbcaudit
                          repon=+ty       awalwdsbri~fornewuaersorc-                    upontkircnrmnceon
                          duty. A&Wmauy,c4chanployc!eofthewHS-for-andSecaltity
                          rcceivesulrnnvlupd8tebri&gaadtbt!setxi&ngs~~tedbytbcInfo~ation
                          SystcmsSeaxityOf&r.

                                  hadditic0toinitialcxanpWsccwity~                tminingbeingprovidedtoal1
                          DP&S employees, W?IS pssolmcl also provide sccuity a-             lJfk%gSUprrtOf
                          thetrai&gpmvidaitonewusasoftbeDCPDSPPIsni@.                Uaertminingandsecwity
                          briefings are a pxwq&itetorazeivingvaliduserlogonsandpasswo&toaccessthcPPI
                          SUitC.



  Page 11
                          NOtApphbktOWHS




                                                                             40
                                      Washington Headquarters Services Comments

                                                                                       Final Report
                                                                                        Reference




                                                                                       Page 13
lkdiugc

“1. we recommd that the Dileuor for Personnel and Swlity. washingtoa
Hexlquartcrs Services, direct the appropriate sexrity puwncl at WHS to:
       a conduct a risk analyrrisfor its organization td identify and define overall
systanthrcatsandvulnunbiics.
          b. conduct a systems security test and cvahation.

       c. ensuretbat its customer support units compk a security plaq contingency      Revised
phn, and system acc~itation and conduct a risk analysis and systems test and
evaluation.




       b. Concur - A systems test ~JWJ
                                     evahtion on the WHS RSC information
techoology infkbWuv will be completedby the end of the 3” quarter, FY 98.
       c. Nonconcur-

               (1) No command and eomtrolrelationship exists bctwcn the w’HS RX
aadtheCSUs. EacbCutomcz Support Unit is responsible for completing its own
Saxrity pkn. security policy, cuntiqau2y plan and system accreditation and conduct a
Ii& analysis and systems test and cvaluntion.




                                                       41
Washington Headquarters Services Comments




                                        42
,Department of the Air Force Comments




      MEMORANDUM        FOR ASSISTANT INSPECTOR GENERAL FOR AUDITING
                            OFFICE OF THE INSPECd  GENERAL
                            DEPARTMBNT OF DEFENSE

      FROM: HQ AFCIUSYNI
            1250 Air Force Pentagon
            Washington, DC 2033&1250

      SW         InformatiwAsmanccfortkDefenscCivilianPammelDataSyStm-
                 Wuhhgton Hcadquar~as Suviccs (Project No. 7RE-3006.03)




             If you have ally qu@ions or need fultha assdmcc pkaac uxltaa Ms. McIinrl8 Palmer,
      (703)58%6167. AFCICJSYNI, or Major Mmh          (703)614-2478, AF/DPCX.




      Cc:
      AFCICnTAl
      AFCIC/SYSS
      AF/DPCx
      SAFiFTvfPF




                                                            43
Department of the Air Force Comments




                                  DEPARTMENT OF THE AIR FORCE
                                  HEAW1)*RTERSUNITED STATES AIR FORCE
                                             WASHINGTON,     DC




                                                                                     37yQi
          MEMORANDUM FOR AFCIUITAI
          FROM: AFtDPCX
          SUBJECT: DoDlG DmfI Rcpa, hfornution Amraw       for the Dcfcw Civilian Pmoancl
                   Data System- Wcuhington Hcadquaters Services




                Ifyouhavcanyqwtiworwedfrntherassinancc            please conIact Mqi M&       703-
          6142478 or amoil nhwauk@dp.hq.ti&.




                                                           Chief, Plans and Raqrrirrmeots Division
                                                           Dircctolarc of Civilian Pasonnel Policy
                                                           and Personnel PIaus



          Acquisition Program Managemad Rcspmse
          cc:
          SAFIFMPF
          AFClUSYSS




                                                    44
                                     Department of the Air Force Comments


                                                                            Final Report
                                                                             Reference




            Acquisition Program Manager Msnrgcmcat Respopsc
                          to a Dmf: Audit Report on
    Information Assutmce of the Defense Civilian Personnel Data Syrtcm
                      Wcsbington Badquarters Ssrviw,
                           Pro]& No. 7RE-3006.03,
                          Dated Deeember 17,1997.




Sectioa I: Draft Audit Report Findings:



                                                                             Revised




                                      45
Department of the Air   Force   Comments




                                           46
Department   of the Air Force Comments

                                         Final Report
                                          Reference




                                         Revised
                                         Page 11
               Department of the Air Force Comments


Final Report
 Reference




  Page 12




                         Soctioa II Rccommcndatioo   for Corroctivc   Action




                                                               48
                                    Department of the Air Force Comments


                                                                           Final Report
                                                                            Reference




Sfction III Matchal Managcntent Core01   Woak~ess




                                                                           Page 19




                                                                           Page 19




                                   49
Civilian Personnel Management Service Comments



                                         DEPARTMENT       OF DEFENSE
                              C,“,L,AN     PLRSONNLL    MANAGEMENT       SERWCE
                                              1400 KM   SOULEVAUQ
                                           ARLINGTON.   VA ZZZOS-SlU




     MEMORANDUM FOR DIRECTOR, READINESS AND OPERATIONAL SUPPORT
                      DIRF%YORATE, DEPARTMENT OF DEFENSE INSPECTOR
                      GENERAL


     SUBJECTZ PrqxGed Audit REpm M lnfolm2tion Assurance                 for the Defense Civilian Personnel
              Data System - Washington Hcadquatters Scnks                @ojcct No. 7RE-3006.03)


         This mcmorartdum     constitutes the functional proponent’s     rcsponsc to   theProposed Audit

     Rcpxt   on hformation   Assurance     for the Defense Civilian   h%omel   Data System - Washington

     Headquarters   Services dated December      17.1997 (Project No. 7RE-3006-03).       The attached

     document responds to the applicable findings, identifies our concerns, and explains the revisions

     we believe arc necessary so that the final report will accurately    n$kzt Defense Civilian

     Personnel Data System progr8m information.         We appreciate the opportunity    to comment.




                                                La-)* c*
                                                   Earl T. Payne
                                                      Director


     Attacbmcnt:
     As stated




                                                                   50
                                Civilian Personnel Management Service Comments


                                                                                                   Final Report
                                                                                                    Reference




                  M      Propuaed Audit Report on Information a
                 fur the Defense f%ilian PeraoMel Data system mcPDsJ=
                             Washington Headq-      Servim
                              DoDIG Pmject No. 7RE3006.03


ExBcuTIvRsuMMARY

Intruduction (page I). ‘+Thisreport is the third of four reports in our ongoing review of the      Revised
Defense Civilian Personnel Data System. The Defense Civilii Pemoanel Data System is an
automated infotmation system that will process sensitive-but-rmdasaifted information for at kasl
7SO.ooODefense civilian personnel records at 23 regional personnel senkmg centers and
approximately 300 customer suppott units. The Defense agencies will establish four of the 23
nzgional personnel servicing centem. The Washington He-               Services wili serve as
manager of the NaticutalCapitol Region Human Resources Services Catter. Initially, the
Washington Headquartezs !kvices will process ap~roximatcly 10,000 pc’so”“cI records at seven
customer support units.”

Resume:     The pmposcd lmguagc may confuse readerssince it does not distinguish between
the legacy Defense Civilian ~DataSystem(DCPDS)andthem&ruDCPDSstillunder
development. To avoid confusion we ask that you substitute the following language:

     mis report is the third of four reports iu our ongoing review of the Defense Civilian
Personnel Data System. The DCPDS currently in operation is a legacy automated information
system that ptccessea sensitive-but-unclassified information for approximately 750.000 DOD
civilian peason& mcortls. The DepYmvnt of Defense is modemixing the DCPDS as it
rcgionaliz.es the delivery of civilian pcrsonncl service into 22 Regional Savice Cutters (RSCs)
and approximately 300 Customer Support Units (CSUs). The modern DCPDS is schedukd to
replace the legacy system by the time mgionalixation is completed in PY 1999. The Washington
Headquarters Services National Capital Region, Human Reaounxs SeXvicecenter (HRSC), will
serve as one of the four Defense agency RSCs. The Washington Headquarters Services HRSC
serves seven CSUs. processing approximately 10,000 personnel records using-&e legacy
Defense Civilian Persom~l Data Systerz~”

AUDIT BACKGROUND

DererKe CiVUi &raoMel Data System @age 2). The Assistant kretary of Defense                        Revised
(Command, Control, Communications. and Intelligence) designated the Defense Civilian
Personnel Data System (DCPDS) as an interim standard system in an April 22.1991,
memorandum. The memorandum designated the Secretary of the Air Porte as the executive
agent for the DCPDS. The DCPDS program exists to provide a seamkss automated information
system that will provide support for personnel policy actions and personnel decisions during
peacetime, contingencies. and wartime. The DCPDS will support all DODComponcn~r
worldwide and will be used by pelso~el officials, employees, managen. and senior leadership
at all Icvcis of DODoperations throughout the world. DCPDS is cnvisioncd to enable one




                                              51
Civilian Personnel Management Service Comments




         pnonael specialist to pmvide paaonnel services to abut 100 civilisn pasonnel. DCPDS is
         also envisional to eliminate duplicative DODComponent aod Defense agency personnel system
         costs and to reduce maintenance CMts for mainframe computexs. The cu!TeJItoperational
         DCPDS qports the Mlitazy apmtment aud Defense agencies and conaim of DCPDS
         soRMnapplicationscalkdpenotmelprocessimprwnmnu.                   Tbepenannelprocess
         impmvanents ate ao imporwt clement in migrating to the modem system. The personnel
         process improvements application progmms provide electronic mcaus to generate. route, and
         prcccss personae1 actions: create aud classify positions; initiate, route, and sack training
         requests; and access current pusonncl database and associated data from other functional areas.
         The DCPDS interim system is designed to improve and enhance puxonnel staffs during tbc DOD
         transition to a downsized workfcaxzc.

         w            TheproposcdlongurgemryconfustMdersshrceitdasnadistiaguirhbetween
         thekgacyDCPMandtbeum&rnDCPDSstiilunderdevelopmmt.                     Toavoidconfusionweask
         that you sutxtitule the following Iaaguage which describes the uaosition of the legacy DCPDS
         since it was designated as an interim s&ndard system and clarifies the distinctian betweca the
         legacyDCPDSaadthe-DBDS.

          “Ibe Assistant &craaty of Defense (Cornman& Control, Communications, and Intelligence)
         desi~edtbc~~~siinterimstandudsyrecminanApril22,199l,wmwtadum.                        The
         memomndum designated the Saxetary of the Air Force as the executive agent for the DCPDS.
         At that time, JXPDS consisted of a core system, the Air Fozadeveloprd Persoanel Data
         System-Civilian (PDSC), plus distinct Army and Navy vusicms of PDSC. Since 1991. tbc
         Deputment has traasitioned the Military Dqttmenu and most D&use agencies to a standard
         DCPDS.




         TheDeparhnentisnowinthepnxzssof&v&pingamcdunDCPDS.                     Thefunctionalityofthe
         PPI Suite will bc included in the modem DCPDS. The modem DCPDS will ptwirk a seamless
         automated infonnatiun system that will suppon pxsonael policy actions md personnef de&bus
         during peacetime. contingulcies, and WartinE. The modem DCPDS will suppat Components
         worldwide. Personnel officials, employees. managers, and senior ladcrsbip at all levels of the
         Deputment will use it. The m&m DCPDS will also eliminate the need for duplicative
         Componax headquarters petsotmcl systems reduce maintenance costs for mainframe
         computers.”




                                                       52
                                 Civilian Personnel Management Service Comments


                                                                                                      Final Report
                                                                                                       Reference




                                                                                                      Pages 4,
                                                    “Additionally, the DCPDS ftmctionai and           11, & 12
acquisition program managers did not coordinate with WHS about their respective security
management roles and msponsibilities for the DCPDS information assurance prognun.”

w:         Nonconcur.

The legacy DCPDS was designed, developed, aud impkmented as an Air Force petsonnet
system in the mid 1970s. When the ASD (Uf) designated tk legacy DCPDS as the interim
standard system in 1991. the ftmctiotud program managers left tba existing security management
roles, responsibilities, and processes in place.

APPC has coordinated with the Components concerning the security management roles and
responsibilities for the interim DCPDS. APPC also provided system administrator training and
manuals to the Components that cover practices and proccdums for gmnting access to the interim
system. On Pebtuary 12.1997. APPC provided Component systems administrators a software
release annomxement for PPI Version 4.4 of the interim system. This release implemented the
first scripts to configure sewers and workstations in accordance with the established security
policy. APPC provided another r&ax announcement for the PPI Version 5.0 in June 1997.
This announcement described tk scripts and actions requited 10operate the system audit log
feature.

CPM& as the functional proponmt for the DCPDS Modcrnizption Program, is responsible for
insuring controls arc in place to safeguard civilian pemomxl records in the modern DCPDS.
R&y.       CPMS published a coordinated modem DCPDS policy and security support plan.
These documents clearly dcfinc ttu mspcctive security managerrunt roles and mspunsibilities for
the modern DCPDS. In addition, CPMS is in the final process of identifying the organizational
component, which will serve as the modem DCPDS Designated Appmving Authority (DAA).
The modem DCPDS DAA will appoint a certification official who will oversee the Certification
and Accreditation (C&A) prccess, and approve the level of risk for the modarn DCPDS. The
modern DCPDS DM will oversee the dcvclopmcnt of the C&A package. The C&A package
will describe the objectives, msponsibilities, schedule, technical monitoring, and other activities
in support of the C&A process.

Coordimxtion with DOD Comwnarts (mute 12 and 13). ‘Specifically. tha DCPDS functional
and xquisition program managers did not provide any training requirements for designated              Pages ll&
security personnel such as the Information Systems Sccurhy Manager, the Information Systems           12
Security Officer, the Network -or,           and the Systems Administrator for the DCPDS.”

Response: Concur.

The legacy and interim DCPDS operate under existing computer security program mguhttions
and guidelines. CPMS has not provided training requirements for designated security personnel
using the legacy and interim DCPDS. In this environment. Components are msponsible for
csrablishing their own security training requirements based on the& specific regulations and
directives.




                                               53
Civilian Personnel Management Service Comments




         The modem DCPDS Computer Security Working Group (CSWG). cbaitzd by CF%l!3,will
         develop a security annex for the mcdun DCPDS Training Supptut Plan. Tbc annex will idartify
         training rcq uircnxnts for security person&. including the Information Systems hhnagcr, tbe
         Information Systems Security OEicer, the Network Administrator, and the Systems
         Adminisnator for tbc modem DCPDS.

         Under the Regionalization Prognun. the modern DCPDS will optra3c in a sandard opeating
         cnvhnmcnl of servers, w-               pcriPhcr&. and commurticatiottS networks for civilian
         pcrsotme~operatiotts tbrougbout DOD. A elational dat&ase will link to the client-server
         network located at Regional service Centers and Customct Support Units. The interim DCPDS
         is curtcntly deployed in this opcmting cnvimnmcnt. Therefore. tbc DCPDS Training Support
         Plan Security Annex will apply to the interim DCPDS.




                                                     54
Audit Team Members

The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing, DOD, produced this report.

Thomas F. Gimble
Mary Lu Ugone
Cecelia A. Miggins
Dorothy L. Dixon
Kathleen Fitzpatrick
Michael T. Carlson
Bernice M. Lewis
